HHS/OIG-Audit--"Review of Medicaid Payments For Rehabilitation Services To TheAbraxas Foundation Of West Virginia For The Period October 1, 1993 Through March 31, 1994,(CIN:A-03-95-00200)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Medicaid Payments For Rehabilitation Services To The Abraxas Foundation Of West Virginia For The Period
October 1, 1993 Through March 31, 1994." (A-03-95-00200)
October 26, 1995
Complete Text of Report is available in PDF format (2.36 MB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Medicaid payments made to Abraxas for rehabilitation services between
October 1, 1993 and March 31, 1994 were reasonable and allowable according to the Medicaid State Plan. We found that many
of the services reviewed do not meet the State Plan definition for rehabilitation services. These services, which totaled
$135,654, included general observations and monitoring, not medical or remedial rehabilitation services.